HHS/OIG, Audit -"Audit of The Appropriateness of California Pension Charges To The Federal Government for State
Employees for Fiscal Year Ended June 30, 2003,"(A-09-04-00037)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Audit of The Appropriateness of
California Pension Charges To The Federal Government for State Employees for Fiscal Year Ended June 30, 2003," (A-09-04-00037)
October 18, 2004
Complete
Text of Report is available in PDF format (920 kb). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
California appropriately charged the Federal Government for the pension expenses of State employees working on Federal
programs, in accordance with the Office of Management and Budget (OMB) Circular A-87.  Specifically, for fiscal year
ended June 30, 2003, the States retirement fund contribution rates were based on actuarial projections that complied with
Federal regulations, and the appropriate contribution amounts were claimed for Federal reimbursement.